HHS/OIG-Audit-"Review of Medicare Contractor's Pension Segmentation,
Blue Cross and Blue Shield of North Dakota," (A-07-99-02560)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Contractor's Pension Segmentation, Blue Cross and
Blue Shield of North Dakota ," (A-07-99-02560)
February 1, 2001
Complete
Text of Report is available in PDF format (1.26 MB). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides the results of our review titled, "Review of Medicare
Contractor's Pension Segmentation, Blue Cross and Blue Shield of North Dakota."
The purpose of our review was to evaluate Blue Cross and Blue Shield of North
Dakota's (North Dakota) compliance with pension segmentation requirements of
its Medicare contract. Our review showed that North Dakota understated its January
1, 1992 Medicare segment assets by $180,634. The understatement occurred because
North Dakota did not implement our recommendations from a prior audit report.
However, North Dakota's update of the Medicare segment assets from January 1,
1992 to January 1, 1998 overstated segment assets by $1,529,366. The overstatement
primarily occurred because North Dakota did not make correct transfer adjustments.
We recommend that North Dakota decrease the January 1, 1998 assets of the Medicare
segment by $1,348,732 ($1,529,366 less $180,634).